HHS/OIG, Audit -"Results of Our Audit of Albuquerque Manor's Medicaid Nursing Facility Cost Report for the Fiscal Year Ended December 31, 2000,"(A-06-03-00015)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Results of Our Audit of Albuquerque Manor's Medicaid Nursing Facility Cost Report for the Fiscal Year Ended December
31, 2000," (A-06-03-00015)
January 21, 2004
Complete
Text of Report is available in PDF format (523 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Albuquerque Manor, a New Mexico nursing home, claimed costs
on its Medicaid cost report for the year ended December 31, 2000 that were not:  (1) related to patient care or
supported, (2) reduced to costs for related party transactions, and (3) allocable to the Manor.  New Mexicos Medicaid
program requires costs to be related to patient care and cost information to be accurate, current, and in sufficient
detail to support payments for services rendered.  It also requires that purchases from related organizations not
exceed the cost to the related organization and that costs must be based on an approved cost finding method.  The
conditions occurred because the Manor did not have policies, procedures, and controls to ensure compliance with the States
Medicaid program requirements.  As a result, the Manors Medicaid cost report was overstated by $518,492.  We
recommended that the Manor: (1) establish and implement policies and procedures to ensure program requirements are met,
and (2) submit a revised cost report that reduces costs by the amounts questioned, which will be used by the State Medicaid
program to re-compute and adjust Medicaid reimbursement payments.  The Manor did not fully agree with the recommended
adjustment and was not responsive to the conditions in our report.